         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       Information Security Series:
       Security Practices

       Clean Air Markets Division
       Business System

       Report No. 2006-P-00024   


       May 4, 2006 

Report Contributors:      Rudolph M. Brevard
                          Charles Dade
                          Neven Morcos
                          Jefferson Gilkeson
                          Scott Sammons




Abbreviations

ASSERT       Automated Security Self-Evaluation and Remediation Tracking
C&A          Certification and Accreditation
CAMDBS       Clean Air Markets Division Business System
EPA          U.S. Environmental Protection Agency
FISMA        Federal Information Security Management Act
NCC          National Computer Center
OAR          Office of Air and Radiation
OIG          Office of Inspector General
OMB          Office of Management and Budget
POA&M        Plan of Action and Milestone
RTP          Research Triangle Park
                       U.S. Environmental Protection Agency                                                2006-P-00024

                       Office of Inspector General                                                           May 4, 2006





                       At a Glance

                                                                          Catalyst for Improving the Environment

Why We Did This Review           Information Security Series: Security Practices
As part of our annual audit of
                                 Clean Air Markets Division Business System
the Environmental Protection
Agency’s compliance with          What We Found
the Federal Information
Security Management Act          The Office of Air and Radiation (OAR) had substantially complied with many of the
(FISMA), we reviewed the         information security controls tested. In this regard, OAR developed and tested a
security practices for a         contingency plan for the Clean Air Markets Division Business System (CAMDBS)
sample of key Agency             and personnel with significant security responsibility completed the Agency’s
information systems,             recommended specialized security training courses. However, our audit identified
including the Office of Air      areas where OAR should place greater emphasis to comply with Federal and Agency
and Radiation’s (OAR’s)          information security requirements. We found that CAMDBS, a major application,
Clean Air Markets Division       was operating without (1) an up-to-date risk assessment and (2) effective practices to
Business System                  ensure that all production servers were monitored for known security vulnerabilities.
(CAMDBS).                        OAR could have discovered the identified weaknesses had the office reviewed its
                                 implemented practices for completing these requirements as well as those of the
Background                       National Computer Center (NCC), the group charged with primary responsibility for
                                 monitoring the servers. As a result, CAMDBS officials lacked key security
FISMA requires agencies to       management tools that could be used to proactively identify potential security
develop policies and             weaknesses.
procedures commensurate
with the risk and magnitude       What We Recommend
of harm resulting from the
malicious or unintentional       We recommend that the CAMDBS System Owner:
damage to the Agency’s
information assets.               ¾	 Conduct a full formal risk assessment of CAMDBS in accordance with Federal
CAMDBS is the data system            and Agency requirements.
EPA uses to support the
market-based emissions            ¾	 Coordinate with the NCC to verify that it is regularly monitoring all CAMDBS
trading programs.                    production servers for known vulnerabilities at least monthly.

                                  ¾	 Develop a Plan of Action and Milestone in the Agency’s information security

                                     weakness tracking system for all noted deficiencies. 

For further information,
contact our Office of            We recommend that the OAR Information Security Officer:
Congressional and Public
Liaison at (202) 566-2391.
                                  ¾	 Conduct a review of OAR’s current information security oversight processes and
To view the full report,             implement identified process improvements.
click on the following link:
www.epa.gov/oig/reports/2006     OAR agreed with the findings in the draft report and indicated that the office has
/20060504-2006-P-00024.pdf       moved forward aggressively to implement the recommendations. OAR’s complete
                                 response is in Appendix A.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                       OFFICE OF 

                                                                                  INSPECTOR GENERAL




                                           May 4, 2006

MEMORANDUM

SUBJECT:              Information Security Series: Security Practices
                      Clean Air Markets Division Business System
                      Report No. 2006-P-00024

TO:                   William Wehrum
                      Assistant Administrator for Air and Radiation


This is our final audit report on the information security controls audit of the Office of Air and
Radiation’s Clean Air Markets Division Business System. This audit report contains findings
that describe problems the Office of Inspector General (OIG) has identified and corrective
actions the OIG recommends. This audit report represents the opinion of the OIG, and the
findings in this audit report do not necessarily represent the final U.S. Environmental Protection
Agency (EPA) position. EPA managers, in accordance with established EPA audit resolution
procedures, will make final determinations on matters in this audit report.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective action
plan for agreed upon actions, including milestone dates. We have no objection to further release
of this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact Rudolph M. Brevard,
Director, Information Technology Audits, at (202) 566-0893, or Charles Dade, Assignment
Manager, at (202) 566-2575.




                                                     Bill A. Roderick
                                                     Acting Inspector General
                                       Table of Contents 

At a Glance 


Purpose of Audit…………………………………………………………………………………...                                                                                       1     


Background…………………………………………………………………………………………                                                                                             1     


Scope and Methodology .....................................................................................................              2     


CAMDBS’ Compliance with Federal and Agency Security Requirements ....................                                                    3 


     Certification and Accreditation ………………….. .............................................................                             4

     System Monitoring for Known Vulnerabilities...................................................................                      4


Recommendations...............................................................................................................           5     


Agency Comments and OIG Evaluation ............................................................................                          5     



Appendices
A     Agency Response to Draft Report .............................................................................                      6     


B     Distribution ...................................................................................................................   9

Purpose of Audit
          Our objective was to determine whether the Office of Air and Radiation’s
          (OAR’s) Clean Air Markets Division Business System (CAMDBS) complied
          with Federal and Agency information security requirements. CAMDBS is the
          data system EPA uses to support the market-based emissions trading programs.

Background
          We conducted this audit pursuant to Title III of the E-Government Act of 2002,
          commonly referred to as the Federal Information Security Management Act
          (FISMA). FISMA requires the Agency to develop policies and procedures
          commensurate with the risk and magnitude of harm resulting from the malicious
          or unintentional damage to the Agency’s information assets. EPA’s Chief
          Information Officer is responsible for establishing and overseeing an Agency-
          wide program to ensure the security of its network infrastructure is consistent with
          these requirements. Program office heads are responsible for ensuring that the
          security of each major application within their organization is managed in
          accordance with all appropriate government-wide and EPA-specific information
          technology policies, procedures, and standards.

          Program offices should create a Plan of Action and Milestone (POA&M) when it
          identifies a security control weakness. The POA&M, which documents the
          planned remediation process, is recorded in the Agency’s Automated Security
          Self-Evaluation and Remediation Tracking (ASSERT) tool. ASSERT is used to
          centrally track remediation of weaknesses associated with information systems
          and serves as the Agency’s official record for POA&M activity.

          FISMA requires the Inspector General, along with the EPA Administrator, to
          report annually to the Office of Management and Budget (OMB) on the status of
          EPA’s information security program. The OIG provided the results of its review
          to OMB in Report No. 2006-S-00001, Federal Information Security Management
          Act, Fiscal Year 2005 Status of EPA’s Computer Security Program.

          During our annual FISMA review, we selected one major application each from
          five EPA program offices and reviewed the office’s security practices surrounding
          these applications. Our overall review noted instances where EPA could improve
          its security practices and the OIG reported the results to EPA’s Chief Information
          Officer in Report No. 2006-P-00002, EPA Could Improve Its Information Security
          by Strengthening Verification and Validation Processes.

          This audit report is one in a series of reports being issued to the five program
          offices that had an application reviewed. This report addresses findings and
          recommendations related to security practice weaknesses identified in OAR. In
          particular, this report summarizes our results regarding how OAR implements
          Federal and EPA security policies and procedures. This report also includes our


                                           1

         evaluation of how OAR implemented, tested, and evaluated CAMDBS’
         information security controls to ensure continued compliance with selected
         information security requirements. The Scope and Methodology section contains
         the specific information security controls audited during this review.

Scope and Methodology
         We conducted our field work from March 2005 to July 2005 at EPA Headquarters
         in Washington, DC; and the National Computer Center (NCC), Research Triangle
         Park (RTP), North Carolina. We interviewed Agency officials at both locations
         and contract employees at the NCC. We reviewed relevant Federal and Agency
         information security standards. We reviewed application security documentation
         to determine whether it complied with selected standards. We reviewed system
         configuration settings and conducted vulnerability testing of servers for known
         vulnerabilities. We reviewed training records for personnel with significant
         security responsibilities.

         We reviewed the following security practices for CAMDBS:

              •	 Security Certification and Accreditation (C&A) Practices -- We
                 evaluated whether application security plans, risk assessments, and
                 authorizations for operation complied with Federal and Agency
                 standards. We also reviewed the C&A package to determine whether
                 the security plan was updated and re-approved at least every 3 years and
                 the application was reauthorized at least every 3 years, as required by
                 OMB (Office of Management and Budget) Circular A-130 and EPA
                 policy.

              •	 Application Contingency Plans -- We reviewed whether the
                 contingency planning practices complied with requirements outlined in
                 EPA Directive 2195A1 (EPA Information Security Manual), National
                 Institute of Standards and Technology Special Publication 800-34
                 (Contingency Planning Guide for Information Technology Systems), and
                 EPA Procedures Document (Procedures for Implementing Federal
                 Information Technology Security Guidance and Best Practices).

              •	 Security Controls -- We reviewed two areas of security controls: (1)
                 system vulnerability monitoring, which included conducting
                 vulnerability testing; and (2) physical controls. The NCC manages the
                 servers that run CAMDBS and provides the primary security controls for
                 the application. Therefore, when evaluating system vulnerability
                 monitoring, we reviewed practices at the NCC. We did not test physical
                 controls at the NCC, because the NCC was undergoing an audit of these
                 controls at the time of our review and the audit found instances where
                 EPA could improve its physical controls at RTP. The OIG reported the
                 results of this audit in Report No. 2006-P-00005, EPA Could Improve


                                         2

                  Physical Access and Service Continuity/Contingency Controls for
                  Financial and Mixed-Financial Systems Located at its Research
                  Triangle Park Campus.

              •	 Annual Training Requirements -- We reviewed whether employees
                 with significant security responsibilities satisfied annual training
                 requirements.

         We conducted this audit in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States.

CAMDBS’ Compliance with Federal and Agency Security
Requirements

         We found that (1) OAR had developed and tested a contingency plan for
         CAMDBS and (2) personnel with significant security responsibility satisfied the
         Agency’s recommended specialized security training necessary to perform their
         duties. However, we noted instances where OAR should place more emphasis to
         comply with established Federal and Agency information security requirements.
         In particular, our review noted:

              •	 Although the CAMDBS system owner maintained a list of risks
                 associated with the application, the system owner did not conduct a full
                 formal risk assessment, which includes testing the controls as required
                 by Federal and EPA requirements. Upon notification of our finding,
                 OAR officials indicated that they entered POA&Ms in the Agency’s
                 security tracking database to track the completion of the risk assessment.

              •	 One of the two CAMDBS production servers was not being monitored
                 for known vulnerabilities. NCC personnel indicated that the server had
                 been added to the routine vulnerability monitoring list and the Agency
                 took immediate action to remediate the identified vulnerabilities.

         Promptly conducting risk assessments and monitoring servers for security
         vulnerabilities help to assist managers in ensuring the Agency’s network
         infrastructure is adequately protected. These widely recognized preventive
         controls aid in identifying potential security weaknesses and assist security
         personnel in taking the necessary remediation steps to prevent security incidents.
         By not emphasizing these key security controls, CAMDBS officials lacked key
         security management tools that could be used to proactively identify potential
         security weaknesses.




                                          3

Certification and Accreditation

OAR could improve procedures to ensure that key security tasks are completed.
Although OAR maintained a Risk Inventory and Assessment Table in the current
security plan, OAR did not complete a full formal risk assessment to include
testing the controls to ensure the controls were effective and operated as intended;
3 years had past since OAR last tested the controls. OAR officials indicated that
they would complete the risk assessment. OAR also indicated that they have
entered tasks in ASSERT to identify and track the requirements of incorporating
National Institute of Standards and Technology Special Publication 800-53
Recommended Security Controls for Federal Information Systems; update the
security plan; modify the C&A package; and obtain accreditation of CAMDBS by
the end of September 2006.

The information used by OAR officials to make the reauthorization decision is
contained in the CAMDBS C&A package, which includes documents such as the
most recent system security plan, authorization for operation, and risk assessment.
The assessment of risk is an important activity in the Agency’s information
security program that directly supports security accreditation (management's
authorization to operate an information system). Maintaining an up-to-date C&A
package is essential because senior OAR officials use these documents to
determine whether CAMDBS’ current security controls are sufficient and whether
adjustments to security controls are necessary before reauthorizing CAMDBS and
its subsystems to operate.

System Monitoring for Known Vulnerabilities

OAR security control processes did not ensure that all CAMDBS production
servers were monitored for known vulnerabilities. The NCC manages the servers
that run CAMDBS and provides the primary security controls for the application.
Interviews with NCC personnel and vulnerability tests of the CAMDBS
production servers revealed that one of the two CAMDBS production servers (1)
was not being routinely monitored and (2) contained known vulnerabilities. Upon
being notified of these weaknesses, NCC personnel informed us that the
unmonitored server would be added to the routine vulnerability scanning list and
the NCC took immediate action to remediate the identified vulnerabilities.

Routine monitoring of servers for vulnerabilities is widely recognized as a
preventive control to assist security personnel in proactively identifying and
eliminating commonly known threats before they can be exploited. With a
formalized process to ensure this function is being performed, management has
more assurance that OAR mission-critical information systems are adequately
protected against publicized computer attacks.




                                 4

Recommendations
         We recommend that the Clean Air Markets Division Business System
         (CAMDBS) System Owner:

            1.	 Conduct a full formal risk assessment of CAMDBS in accordance with
                Federal and Agency requirements.

            2.	 Coordinate with the National Computer Center to verify that it is regularly
                monitoring all CAMDBS production servers for known vulnerabilities at
                least monthly.

            3.	 Develop a Plan of Action and Milestones in the Agency’s security
                weakness tracking system (ASSERT database) for all noted deficiencies.

         We recommend that the Office of Air and Radiation (OAR) Information Security
         Officer:

            4.	 Conduct a review of OAR’s current information security oversight
                processes and implement identified process improvements.

Agency Comments and OIG Evaluation
         OAR agreed with the findings in the draft report and indicated that the office has
         moved forward aggressively to implement the recommendations. OAR’s
         complete response is in Appendix A.




                                          5

                                                                                   Appendix A

                  Agency Response to Draft Report
                                         April 24, 2006


MEMORANDUM

SUBJECT: 	    Final Response to the OIG Draft Report on the 2005 CAMDBS Audit

FROM: 	       Elizabeth Craig /s/
              Deputy Assistant Administrator

TO: 	         Rudolph M. Brevard, Director
              Information Technology Audits
              Office of the Inspector General


Thank you for the opportunity to review the revised draft report of the FY 2005 FISMA Audit of
OAR’s Clean Air Markets Division Business System (CAMDBS).

Attached is our response to the report and we agree with the findings and appreciate you bringing
them to our attention. As you know, many of the minor problems were quickly resolved and
activities are underway to address the remaining issues.

We look forward to seeing the final version, which should offer a balanced characterization of
the identified problems.


cc: 	Brian McLean
     Jerry Kurtzweg




                                                6

                                                                                April 20, 2006

                   Comments of OAR/OAP/Clean Air Markets Division 

                      On the Findings and Recommendations in the 

                           Revised OIG Final Audit Report, 

                    “Information Security Series: Security Practices, 

                     Clean Air Markets Division Business System, “ 

                                    March 30, 2006



We have reviewed the revised Audit Report, “Information Security Series: Security Practices,
Clean Air Markets Division Business System,” Assignment No. 2005-000661, dated March 30,
2006. We concur with the findings and recommendations presented.

FINDINGS

Finding 1: CAMDBS is operating with an expired Risk Assessment.

We concur with this finding. The last full, formal, independent Risk Assessment for CAMDBS
was completed in February 2002. We do understand and agree that “The assessment of risk is an
important activity in the Agency’s information security program [which] directly supports
security accreditation (management’s authorization to operate an information system).” This is,
we believe, reflected by the fact that OAR has been performing annual risk assessments of
CAMDBS through ASSERT. Nevertheless, a new full, formal, independent Risk Assessment
should have been completed, triggered by the requirements for triennial review or major changes
to the system. (Although the CAMDBS application itself was not changed significantly, there
were changes in the underlying hardware when CAMDBS was moved from one data base server
to another.)

As noted in the report, OAR did begin conducting a Risk Assessment in February 2005, and
plans to complete the effort by the end of June 2006. This will result in certification and an
updated Security Plan by early September 2006, and reaccreditation by the end of September
2006, when the current CAMDBS certification and accreditation would expire. (CAMDBS was
last certified and accredited in October 2003.)

The delay in completing the Risk Assessment begun in 2005 was in response to an April 4, 2005
memorandum from the Deputy CIO, Risk Based Decision to Temporarily Suspend the
Requirement for Completion of Formal Risk Assessments to Support Security Plan Updates for
Certain Systems: “[T]his temporary suspension is … to allow for a reasonable, cost-effective
transition to Agency-wide implementation of the new security life cycle being promulgated by
the National Institute of Standards and Technology.”

A Plan of Action and Milestones (POA&M) regarding the Risk Assessment was entered into
ASSERT and is being tracked.




                                               7

Finding 2: CAMDBS was operating without effective practices to ensure that all production
servers were monitored for known security vulnerabilities.

We concur with this finding. We recognize that some technical vulnerabilities were identified in
the OIG-performed scans of these systems and that coordination between CAMDBS and NCC
staff needed improvement. Results of system scans have been shared with CAMDBS on an
“exception” basis: problems requiring coordination were identified, but full results were not. We
are working with NCC to develop a system of sharing system scan information that will meet
both our needs. Staff and managers responsible for the operation and security profile of the
CAMDBS application are in regular and frequent (at a minimum, biweekly, and usually, at the
staff level, daily) contact with staff and managers at the NCC to discuss coordination and
collaboration on matters of common interest and potential interaction and issue resolution.

Finding 3: OAR developed and tested a contingency plan for CAMDBS.

We concur with this finding. In fact, we believe that our efforts in this area are critically
important and worthy of specific recognition.

Finding 4: Personnel with significant security responsibility completed the Agency
recommended specialized security training

We concur with this finding.

RECOMMENDATIONS

We concur with all of the recommendations. In fact, we have moved ahead aggressively to
implement these recommendations.




                                                  8

                                                                            Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Air and Radiation
Acting Assistant Administrator for Environmental Information
Director, Technology and Information Security Staff
Audit Followup Coordinator, Office of Air and Radiation
Audit Followup Coordinator, Technology and Information Security Staff
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                              9

